           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  THE HENRY ITTLESON CENTER, AN
 ORGANIZATIONAL REPRESENTATIVE
  PAYEE FOR THE SOCIAL SECURITY
         ADMINISTRATION


   March 2008      A-02-07-27077




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                  SOCIAL SECURITY
MEMORANDUM

Date:      March 27, 2008                                                                Refer To:

To:        Beatrice M. Disman
           Regional Commissioner
            New York

From:      Inspector General

Subject:   The Henry Ittleson Center - An Organizational Representative Payee for the Social
           Security Administration (A-02-07-27077)


           OBJECTIVE
           Our objectives were to determine whether the Henry Ittleson Center (Ittleson Center), as
           an organizational representative payee for the Social Security Administration (SSA),
           (1) had effective controls over the receipt and disbursement of Supplemental Security
           Income (SSI) payments and (2) used and accounted for SSI payments in accordance
           with applicable regulations and SSA’s policies and procedures.

           BACKGROUND
           Congress granted SSA the authority to appoint representative payees to receive and
           manage payments for some individuals. 1 Federal regulation indicates that SSA will
           appoint representative payees if it determines that the beneficiary is not able to manage
           or direct the management of benefit payments in his or her own interest. 2 SSA will pay
           benefits to a representative payee if the beneficiary is legally incompetent or mentally
           incapable of managing benefit payments or physically incapable of managing or
           directing the management of benefit payments, or eligible for benefits solely on the
           basis of disability and drug addition or alcoholism is a contributing factor material to the
           determination of disability. 3




           1
               42 U.S.C. §§ 405(j), 1383(a)(2).
           2
               20 C.F.R. § 416.601.
           3
               20 C.F.R. § 416.610(a).
Page 2 – Beatrice M. Disman


Generally, if a beneficiary is under age 18, SSA will also pay benefits to a
representative payee. 4 Representative payees are responsible for managing payments
in the best interest of the beneficiary. 5 A representative payee may be an individual or
an organization. Refer to Appendix B for additional Representative Payee
responsibilities.

The Ittleson Center is operated under the Jewish Board of Family and Children’s
Services, Inc. (JBFCS). JBFCS is a nonprofit, nonsectarian social services agency in
New York City with approximately 185 in- and out-patient facilities offering mental health
and social services to individuals. The Ittleson Center is a 32-bed, inpatient residential
treatment facility in the Bronx, New York, that provides rehabilitative and special
education services for severely emotionally disturbed children ages 5 to 13.

In March 2006, JBFCS terminated for cause an Ittleson Center office manager. JBFCS
had found irregularities in the office manager’s accounting of petty cash funds. Upon
terminating the office manager, JBFCS conducted an internal audit and determined that
SSI payments sent to the Ittleson Center on behalf of recipients who were living there
were not properly allocated for the recipient’s use and benefit. JBFCS reported its
findings to SSA at that time. As a result, SSA’s New York Regional Office requested we
perform an audit of the Ittleson Center. After this request was made, the office manager
was indicted on charges related to the misuse of SSA funds.

We obtained copies of negotiated SSI checks from JBFCS for individuals who resided in
the Ittleson Center. We then reconciled those checks with other Ittleson Center, JBFCS
and SSA Representative Payee System (RPS) records to determine the total number of
SSI payments sent to, and managed by, the Ittleson Center from January 1, 2001
through March 31, 2006. Refer to Appendix C for our Scope and Methodology.

RESULTS OF REVIEW
We found the Ittleson Center did not have effective controls over the receipt and
disbursement of SSI payments. Additionally, we found SSI payments were not
accounted for in accordance with regulatory requirements and SSA’s policies and
procedures. Specifically, the Ittleson Center did not

      •   establish adequate internal controls, that is, separation of duties and/or
          compensating controls for its employees receiving and managing SSI
          payments and

      •   maintain financial records in accordance with applicable regulations and SSA
          guidance to show how SSI payments were used to pay for recipients’ current and
          foreseeable needs.


4
    20 C.F.R. § 416.610(b).
5
    20 C.F.R. § 416.635.
Page 3 – Beatrice M. Disman


Because of the lack of financial records, we were unable to determine how the SSI
funds received by the Ittleson Center were used. Still, as a result of the lack of internal
controls and financial records, we found 468 payments totaling approximately
$33,000 for 39 SSI recipients from January 1, 2001 through March 31, 2006 were not
properly safeguarded or accounted for in accordance with Federal regulations and
SSA’s policies and procedures.

INTERNAL CONTROLS

We identified weaknesses in the internal controls over SSI payments received by the
Ittleson Center. Specifically, the Ittleson Center did not have adequate separation of
duties and/or compensating controls for the receipt and disbursement of SSI payments.

The office manager at the Ittleson Center received recipients’ monthly SSI checks. The
office manager bundled all of the checks received and sent them to JBFCS’ Accounts
Payable department along with a form detailing each check’s number, payee and dollar
amount. This was done by the office manager primarily on a monthly basis. The
Accounts Payable department reconciled the checks with the form, deposited the
checks, and prepared and sent a consolidated check payable to the office manager. In
turn, the office manager was to cash the consolidated check and use the money to meet
the monthly needs of SSI recipients the Ittleson Center represented. However, there
were no records to show how the office manager used the SSI monies from the
consolidated checks, and JBFCS did not routinely monitor how the office manager
handled the funds.

The lack of separation of duties created an environment where theft was possible and
recipients’ funds were at-risk of misuse. When establishing or reevaluating internal
control procedures, organizational representative payees should consider the best way
to separate employee duties. Ideally, a different person should be assigned to perform
each of the following basic duties regarding paper checks: (1) receive checks from mail
delivery; (2) record checks received in the financial records; (3) sign checks for
approved disbursements; and (4) maintain and document the use of the accounts for
the recipient’s benefit. When it is not possible to assign a different person for each duty,
compensating controls should be put in place to ensure that a recipient’s benefit is
properly managed by the representative payee in accordance with SSA’s policies. Also,
management should perform routine reviews of the use of SSI payments to ensure they
are being used according to SSA policies.

FINANCIAL RECORDS

We requested from JBFCS the financial records detailing how the Ittleson Center used
and accounted for payments received on behalf of SSI recipients who were inpatient
residents at the facility from January 1, 2001 through March 31, 2006. Through its
attorney, JBFCS provided some of the documentation we requested. Specifically, it
provided photocopies of SSI checks it received and the forms the office manager
completed before forwarding the bundled SSI checks to JBFCS’ Accounts Payable
Page 4 – Beatrice M. Disman


department. JBFCS also provided us with photocopies of the consolidated checks it
forwarded back to the Ittleson Center office manager. These documents were primarily
recorded on a monthly basis.

The documentation provided by JBFCS did not include records that detailed how the
SSI payments were used and accounted for by the office manager to meet the needs of
the SSI recipients. Also, JBFCS did not provide us with records of conserved funds or
annual accounting reports of how SSI payments were used for each recipient.
Additionally, we did not receive any records that indicated SSI recipients’ beginning and
ending SSI account balances as they entered and left the Ittleson Center.

Federal regulations require that representative payees keep accurate and complete
records to show the amount of SSI and Title II benefit payments received and how the
money was used. 6 These regulations also require that, upon becoming a representative
payee, payees keep accurate and complete records for beginning account balances,
and, upon relinquishing their representative payee responsibilities, return/transfer any
remaining account balances to SSA. 7 SSA’s policy requires that expenses be
supported and the supporting documentation maintained for 2 years. 8 Lastly, SSA
policy indicates that SSA should be provided an annual accounting for the use of
accounts. 9

Since JBFCS did not provide us with financial records detailing the status of SSI
payments, we were unable to determine how the payments were used. However, we
determined the number and dollar amount of SSI payments received by the Ittleson
Center as a representative payee by reconciling checks made out to, and/or negotiated
(cashed) by, the Ittleson Center with SSA’s Representative Payee System data
extracts. 10 Per our reconciliation, the Ittleson Center received 468 payments totaling
$32,699.75 for 39 SSI recipients from January 1, 2001 through March 31, 2006.




6
    20 C.F.R. §§ 416.665 and 404.2065.
7
    20 C.F.R. §§ 416.665 and 404.2060.
8
 SSA, Guide for Organizational Representative Payees, Managing and conserving funds,
http://www.socialsecurity.gov/payee/NewGuide/managing.htm.
9
 SSA, Guide for Organizational Representative Payees, Required Duties,
http://www.socialsecurity.gov/payee/NewGuide/duties.htm.
10
     We were unable to determine Ittleson Center resident beginning SSI account balances.
Page 5 – Beatrice M. Disman


Through its attorney, we provided JBFCS all of the records we used to determine the
amount of SSI payments the Ittleson Center received. Upon review of our evidence,
JBFCS verified it received 433 of the 468 payments we identified, for a total of
$20,778.75. 11
Although Ittleson did not confirm the remaining 35 payments, SSA’s New York Regional
Office determined through the Treasury Check Information System 12 that checks for the
35 payments we identified, totaling $11,921, were, in fact, made out to the Ittleson
Center. Refer to Appendix D for further details of SSI payments made to the Ittleson
Center.

CONCLUSIONS AND RECOMMENDATIONS
We concluded JBFCS and the Ittleson Center did not have effective controls over the
receipt and disbursement of SSI payments, and that SSI payments were not accounted
for in accordance with applicable regulations and SSA policies and procedures. The
Ittleson Center’s inability to properly account for the SSI payments in question inherently
limits its ability to protect such assets from misuse and/or misappropriation. Although
we could not determine from the accounting records provided whether misuse occurred
for the 468 payments in question, the control environment in place at the Ittleson Center
rendered the nearly $33,000 in SSI accounts at-risk for misuse. To that end, it is
imperative that SSA determine whether misuse occurred so appropriate corrective
action may be taken. We recommend that SSA:

     1. Determine whether the SSI payments received by the Ittleson Center as a
        representative payee were misused and, if misuse occurred, take the appropriate
        actions.

     2. Work with JBFCS and Ittleson Center, for as long as they are a payee, to
        establish effective internal controls over the receipt and management of SSI
        payments and to ensure that complete financial records supporting the receipt,
        recording, disbursement and maintenance of SSI payments are maintained.




11
   JBFCS completed an internal audit in March 2006 of SSI funds received by the Ittleson Center from
January 2001 to January 2006. Through the audit, JBFCS concluded that $33,885 was not properly
allocated for the use and benefit of recipients residing at the Ittleson Center. Through our review of the
evidence JBFCS used for its internal audit, we determined that it included both SSA and non-SSA funds
issued by New York State in the total of funds it found were improperly allocated for the use of recipients
in its care. While we were provided with some of the evidence JBFCS used for its internal audit, we were
not provided with a final copy of the audit itself.
12
   The United States Department of the Treasury’s (Treasury) Financial Management Service developed
the Treasury Check Information System. It records and reconciles the worldwide issuance and payment
of United States Treasury checks. The system allows users to query to whom Treasury payments were
made and in what form (checks/direct deposit).
Page 6 – Beatrice M. Disman


   3. Determine whether any of the other 185 JBFCS facilities are serving as a
      representative payee, and, if so, ensure the facilities are properly accounting for
      and managing all SSI payments they receive in accordance with applicable
      regulations and SSA policies and procedures.

AGENCY AND REPRESENTATIVE PAYEE COMMENTS
SSA and JBFCS agreed with our recommendations. We note that JBFCS lists all of its
facilities that currently serve as a representative payee in its comments on this report.
(Please see Appendix E for the full text of SSA’s comments and Appendix F for the full
text of JBFCS’ comments).




                                             Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A - Acronyms

APPENDIX B - Representative Payee Responsibilities

APPENDIX C - Scope and Methodology

APPENDIX D - Payments to Henry Ittleson Center for Supplemental Security Income
             Recipients

APPENDIX E - Agency Comments

APPENDIX F - Representative Payee’s Comments

APPENDIX G - OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms

C.F.R.            Code of Federal Regulations
Ittleson Center   Henry Ittleson Center
JBFCS             Jewish Board of Family and Children’s Services, Inc.
OIG               Office of the Inspector General
POMS              Program Operations Manual System
RPS               Representative Payee System
SSA               Social Security Administration
SSI               Supplemental Security Income
Treasury          Department of the Treasury
U.S.C.            United States Code
                                                                           Appendix B

Representative Payee Responsibilities
Representative payees are responsible for using payments to serve the recipient’s best
interests. The responsibilities include: 1

•     Determine the recipient’s current needs for day-to-day living, and use his or her
      payments to meet those needs.

•     Conserve and invest payments not needed to meet the recipient’s current needs.

•     Maintain accounting records of how the payments are received and used.

•     Report events to the Social Security Administration (SSA) that may affect the
      individual’s entitlement or payment amount.

•     Report any changes in circumstances that would affect their performance as a
      representative payee.

•     Provide SSA an annual Representative Payee Report to account for payments spent
      and invested.

•     Return any payments to SSA to which the recipient is not entitled.

•     Return conserved funds to SSA when no longer the representative payee for the
      recipient.

•     Ensure Supplemental Security Income recipients do not exceed their resource limits,
      be aware of any other income they may have and monitor their conserved funds.




1
    20 C.F.R. §§ 404, subpart U, and 416, subpart F.
                                                                     Appendix C

Scope and Methodology
Our objectives were to determine whether the Henry Ittleson Center (Ittleson Center), as
an organizational representative payee for the Social Security Administration (SSA),
(1) had effective controls over the receipt and disbursement of Supplemental Security
Income (SSI) payments and (2) used and accounted for SSI payments in accordance
with applicable regulations and SSA policies and procedures. To accomplish our
objectives, we:

•   Reviewed applicable laws, Federal regulations and SSA policies and procedures
    pertaining to representative payees.

•   Obtained background information about the Ittleson Center and its parent
    organization, the Jewish Board of Family and Children’s Services, Inc. (JBFCS).

•   Determined whether the Ittleson Center complied with SSA’s Guide for
    Organizational Representative Payees, which corresponds to Code of Federal
    Regulations 20, Section 404, subpart U and Section 416, subpart F. Per the Guide,
    a representative payee must establish some form of a payee accounting system that
    will track the following for each recipient:

       −   how much SSI funds were received,
       −   how much of the funds were spent,
       −   how funds were spent, and
       −   the balance saved for each recipient.

•   Obtained copies of negotiated SSI checks from JBFCS for residents who resided in
    the Ittleson Center. We then reconciled the checks with other Ittleson, JBFCS and
    SSA Representative Payee System (RPS) records to determine the total number of
    SSI payments sent to, and managed by, the Ittleson Center from January 1, 2001
    through March 31, 2006, the tenure of the former office manager.

•   Reviewed Ittleson Center internal controls over the receipt, maintenance and
    disbursement of SSI payments.

•   Had discussions with representative personnel from JBFCS, SSA’s New York
    Regional Office, and the New York Office of Investigations.




                                         C-1
We determined SSA’s RPS computer-processed data and data recorded on SSI paper
checks to be reliable for our intended use. We tested certain data elements of data
extracts generated from the SSA's RPS. We completed the test to determine the
completeness, accuracy and validity of the data. These tests allowed us to assess the
reliability of the data and achieve our audit objectives.

We performed our work at the New York Audit Division, New York, New York, from July
through October 2007. We conducted our audit in accordance with generally accepted
government auditing standards.




                                        C-2
                                                                      Appendix D

Payments to Henry Ittleson Center for
Supplemental Security Income Recipients
We have excluded Henry Ittleson Center resident names, dates of residency and
specific check payment amounts in the table below to protect their privacy. We have
provided this detailed information to the Social Security Administration in a separate
letter.

              Recipient    Number of Payments Total Dollar Amount
                  1                        22              $690.00
                  2                        26            $3,845.00
                  3                         3              $645.00
                  4                         5              $150.00
                  5                        15              $450.00
                  6                        23              $690.00
                  7                        11              $330.00
                  8                         6              $180.00
                  9                         4              $120.00
                 10                         1               $90.00
                 11                        20            $4,245.00
                 12                         8            $1,314.00
                 13                         5              $180.00
                 14                         4              $195.00
                 15                         1              $178.95
                 16                        14              $420.00
                 17                        20              $600.00
                 18                         6              $180.00
                 19                         1               $30.00
                 20                         7              $210.00
                 21                         7            $5,472.00
                 22                        25              $755.00
                 23                         1              $824.00
                 24                        24              $720.00
                 25                        16              $480.00
                 26                        20              $605.00
                 27                         6              $240.00
                 28                        17              $540.00
                 29                        10            $1,254.00
                 30                         2              $210.00
                 31                         8              $240.00
                 32                        29            $1,351.80


                                           D-1
Recipient   Number of Payments Total Dollar Amount
   33                       13              $390.00
   34                       25            $2,010.00
   35                        3               $90.00
   36                       27              $810.00
   37                       24              $725.00
   38                        5            $1,100.00
   39                        4              $140.00
Total                      468           $32,699.75




                        D-2
                  Appendix E

Agency Comments
March 5, 2008

To:      Inspector General

From:    Regional Commissioner
         New York

Subject: The Henry Ittleson Center - An Organizational Representative Payee for the Social Security Administration
(A-02-07-27077)



      We have reviewed the draft report and offer the following comments on each of the
      recommendations:

      1. Determine whether the SSI payments received by the Ittleson Center as a
         representative payee were misused and, if misuse occurred, take the
         appropriate actions.

      We will pursue whether misuse occurred and take appropriate action as necessary.

      2. Work with JBFCS and Ittleson Center, for as long as they are a payee, to
         establish effective internal controls over the receipt and management of
         SSI payments and to ensure that complete financial records supporting the
         receipt, recording, disbursement and maintenance of SSI payments are
         maintained.

      As recommended, we will work with the aforementioned agencies to establish more
      effective controls to insure they adhere to payee guidelines.

      3. Determine whether any of the other 185 JBFCS facilities are serving as a
         representative payee, and, if so, ensure the facilities are properly
         accounting for and managing all SSI payments they receive in accordance
         with applicable regulations and SSA policies and procedures.

      We researched the JBFCS and found that there were 19 organizations in RPS and
      only 15 of the 19 are currently active payees, 2 of them being the Ittleson locations.
      The JBFCS website only contained a list of approximately 130 organizations, many
      of whom were listed more than once as they sponsored multiple programs. We
      would appreciate if OIG could provide their list of the 185 facilities to insure that we
      can identify all that are currently representative payee for any
      beneficiaries/recipients.

We, again, want to express our appreciation for your office's assistance in conducting
the audit of the Henry Ittleson Center on our behalf. Should your staff have any
questions, they may contact Dennis Mass, Director, Center for Programs Support at
212 264-4004.

                                                                             /s/
                                                                      Beatrice M. Disman
                                  Appendix F

Representative Payee’s Comments
F-1
F-2
F-3
F-4
F-5
                                                                       Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Tim Nee, Director, (212) 264-5295

   Vicki Abril, Audit Manager, (212) 264-0504

Acknowledgments

In addition to those named above:

    Abraham Pierre, Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-02-07-27077.
                          DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
